SEMIANNUAL REPORT OF FDIC BOARD MEMBERS’
        TRAVEL VOUCHER REVIEWS
     SEPTEMBER 1998 TO FEBRUARY 1999



            Audit Report No. 99-017
                March 26, 1999




            OFFICE OF AUDITS

      OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                                 Office of Inspector General



                                                                                March 18, 1999

MEMORANDUM TO:                  Board of Directors
                                Audit Committee




FROM:                           Gaston L. Gianni, Jr.
                                Inspector General

SUBJECT:                        Semiannual Report of FDIC Board Members'
                                Travel Voucher Reviews - September 1998 to February 1999
                                       (Audit Report no. 99-017)

INTRODUCTION

The OIG reviews FDIC board members' travel vouchers weekly and reports results monthly. This
report summarizes the results of the OIG's travel voucher reviews for the six months ending February
28, 1999. The reviews are part of a continuing program initiated at the request of the Executive
Office. The purpose of the program is to ensure that travel expenses incurred by the board members
while on official travel are not paid by organizations with contractual agreements with the FDIC, trade
associations, and persons or organizations that might be affected by FDIC decisions. The OIG also
reviews travel vouchers for compliance with the FDIC's General Travel Regulations.

SCOPE AND OBJECTIVE

This report covers the weekly reviews performed of all travel vouchers submitted by and paid to the
board members during the period September 1, 1998 through February 28, 1999. During this period,
Chairman Tanoue submitted 11 travel vouchers, Vice Chairman Hove submitted 6 travel vouchers and
Director Neely submitted 1 travel voucher to the FDIC's Division of Finance for payment. No
vouchers were submitted by the Director of the Office of Thrift Supervision or the Comptroller of the
Currency during this time frame. Our reviews included the 18 travel vouchers submitted by Chairman
Tanoue, Vice Chairman Hove, and Director Neely.

Our objective was to determine if the board members' travel was in compliance with ethics standards
contained in FDIC Circular 2410.4 Sub-Part B; 5 CFR Part 2635 Subpart B; and the FDIC's General
Travel Regulations. The circular and CFR criteria prohibit acceptance of gifts, entertainment, favors,
loans, and travel expenses from: (1) a person or organization seeking official action by the FDIC, (2) a
person or organization doing business or seeking to do business with the FDIC, (3) a person or
business conducting activities regulated by the FDIC, or (4) a person or
organization with interests that may be substantially affected by the performance or nonperformance of
the employee's official duties.

CONCLUSION

We concluded that the travel voucher expenses claimed by and paid to Chairman Tanoue, Vice
Chairman Hove, and Director Neely for the six month period ending February 28, 1999, were in
compliance with the ethics standards governing the acceptance of gifts, entertainment, favors, loans,
and travel expenses as contained in the above named criteria and the FDIC’s General Travel
Regulations.

EXECUTIVE ACTION REQUIRED

No executive action is required.




                                                   2
